IN THE
SUPREME COURT OF THE UNITED STATES
No. 20-7389

EMEM UFOT UDOH,
Petitioner,
vs.
BECKY DOOLEY, Warden, Moose Lake,
Respondent.
ON PETITION FOR REHEARING
TO REVIEW THE APRIL 05, 2021 ORDER
ENTERED BY THE CLERK

PETITION FOR REHEARING

JONATHAN P. SCHMIDT
Hennepin County Attorney's Office
C-2000 Government Center
300 South Sixth Street
Minneapolis, MN 55487

EMEM U. UDOH
MCF — Rush City
7600 525TH Street
Rush City, MN 55069

KEITH ELLISON
Minnesota Attorney General
1400 Bremer Tower, Suite 1800
445 Minnesota Street
St. Paul, MN 55101
PETITIONER

PRO SE PETITIONER

QUESTIONS PRESENTED FOR REHEARING
Undisputed facts show the presence of COVID-19 virus in Nigeria with
more than 117,000 positive cases and 1485 deaths. Undisputed facts also show
that President Joseph R. Biden satisfied one of his campaigned promises of the
2020 election by issuing an executive order on January 20 - 22, 2021 that bans
deportation or removability. See Executive Order No. [
(January 22, 2020) entitled ["

],[

] Fed. Reg. [

]

"]. These are the intervening

circumstances of a substantial or controlling effect or to other substantial grounds
not previously presented in this case. Thus, the main question presented for
rehearing is:
Whether The January 20 - 22, 2021 Executive Order Of President Joseph
R. Biden That Bans Deportation Or Removability And The Presence Of
COVID-19 Virus In Nigeria Constitutes Exceptional, Intervening And/Or
Changed Circumstances Or Grounds That Would Warrant Rehearing Of
This Proceeding?
In light of the recent binding precedent of this court, dated April 17, 2018,
in Session v. Dimaya, 200 L. Ed 2d 549, 138 S Ct. 1204, affirming the Ninth Circuit
holding that 18 U.S.C. §16(b), as incorporated in the Immigration and Nationality
Act, is unconstitutional vague, the second question presented for rehearing is:
Whether The Supreme Court holding in Session v. Dinzaya vacates each
and every administrative allegations and charges bearing upon the
"residual clause" of 18 U.S.C. §16(b) as a "crime of violence" by Petitioner
because the April 17 holding provided that the residual clause of 18 U.S.C.
§16(b) defining "crime of violence" was unconstitutionally vague — that is,
too arbitrary and indistinct to comport with the constitution's guaranteed
of due process. Id 1212 — 13?

PETITION FOR REHEARING by Udoh — Page ii

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REHEARING

II

TABLE OF CITED AUTHORITIES

IV

LIST OF PARTIES

IV

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE AND FACTS IN SUPPORT FOR
2
REHEARING
PETITIONER'S PETITION FOR REVIEW OF THE JUNE 24, 2020 BOARD'S
4
DECISION AND PENDING APPEALS IN FEDERAL COURTS.
THE JANUARY 20 - 22, 2021 EXECUTIVE ORDER OF PRESIDENT JOSEPH R.
4
BIDEN THAT BANS DEPORTATION OR REMOVABILITY.
FORM N-336: PETITIONER'S ELIGIBILITY FOR A REQUEST FOR A HEARING
6
ON A DECISION IN NATURALIZATION PROCEEDING UNDER SECTION 336.
FORM EOIR-29: PETITIONER'S ELIGIBILITY FOR A NOTICE OF APPEAL TO
6
THE BOARD FROM A DECISION OF A DHS OFFICER
FORM N-400: PETITIONER'S ELIGIBILITY FOR AN APPLICATION FOR
6
NATURALIZATION.

REASONS FOR GRANTING THE PETITION FOR REHEARING IN
LIGHT OF THE JANUARY 20 - 22, 2021 EXECUTIVE ORDER OF
PRESIDENT JOSEPH R. BIDEN THAT BANS DEPORTATION OR
REMOVABILITY AND THE PRESENCE OF COVID-19 VIRUS IN
NIGERIA THAT CONSTITUTES EXCEPTIONAL, INTERVENING
AND/OR CHANGED CIRCUMSTANCES OR GROUNDS THAT WOULD
6
WARRANT REHEARING OF THIS PROCEEDING
CONCLUSION

14

CERTIFICATE OF COMPLIANCE

15

RULE 44 CERTIFICATION OF MR. EMEM UFOT UDOH

1

APPENDIX

4

PETITION FOR REHEARING by Udoh - Page iii

TABLE OF CITED AUTHORITIES
CASES

7, 8
Diaz v. Lynch, 824 F.3d 758, 760 — 61 (8th Cir. 2016)
5, 7, 8, 14
Feleke v. INS, 118 F.3d 594, 599 — 600 (8th Cir. 1997)
6
Landon v. Plasencia, 459 U.S. 21, 34 (1982)
7, 8, 14
Makonnen, 44 F.3d AT 1385
ii, 5
Session ix Dimaya, 200 L. Ed 2d 549, 138 S Ct. 1204 (2018)
4, 6
Udoh v. Garland, Supreme Court Case No. 20-7565
6
United States v. Destefano, 178 Fed. Appx. 613, 615 n.4 (8th Cir. 2006)
Winegar v. Des Moines Indep. Corn. Sch. Dist., 20 F.3d 895, 899 n.2 (8th Cir.
6
1994).
STATUTES

1
Fed. R. Civ. Pro. 60(B)
2
Fed. R. Civ. Pro. 60(B)(6)
4
Fed. R. Evid. 201
2
Fifth Amendment
2
Fourteenth Amendment
January 20 — 22, 2021 Executive Order Of President Joseph R. Biden That
ii, 1, 4, 7
Bans Deportation Or Removability

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

PETITION FOR REHEARING by Udoh — Page iv

IN THE
SUPREME COURT OF THE UNITED STATES
No. 20-7389

EMEM UFOT UDOH,
Petitioner,
vs.
BECKY DOOLEY, Warden, Moose Lake,
Respondent.

ON PETITION FOR REHEARING
TO REVIEW THE APRIL 05, 2021 ORDER
ENTERED BY THE CLERK

Petitioner, Emem Ufot Udoh, respectfully petition for a rehearing to review the April 05,
2021 order entered by the clerk due the intervening circumstances of a substantial or controlling
effect of the undisputed facts that shows the presence of COVID-19 virus in Nigeria with more
than 117,000 positive cases and 1485 deaths; and in light of the undisputed facts, that clearly show
that President Joseph R. Biden satisfied one of his campaigned promises of the 2020 election by
issuing an executive order on January 20 - 22, 2021 that bans deportation or removability. See
Executive Order No. [

] [ ] Fed. Reg. [

] (January 22, 2020) entitled r

"1. These

are the other substantial grounds or circumstances not previously presented in this case.
STATEMENT OF JURISDICTION
On February 5, 2020, Petitioner filed a Motion to Vacate the Judgement and Order under
Fed. R. Civ. Pro. 60(B). See ECF No. 56, 0:16-CV-4174 (PAM/HB). In his motion, Petitioner
included Exhibits 1 through 3. See ECF No. 57. On February 6 2020, the district court denied

Petitioner's motion. See ECF No. 58. Between April 13, 2020 and June 29, 2020, Petitioner notified
the district court of the extraordinary circumstances and collateral consequences that justify the
relief he requested. See ECF No. 59 through 69. On June 29, 2020, Petitioner filed a Renewed
Motion to Vacate the Judgement and Order pursuant to Fed. R. Civ. Pro. 60(B)(6). See ECF No.
70. In his motion, Petitioner incorporated ECF No. 59 through 69 as supporting evidence, as well
as, Exhibits 1 through 3 in ECF No. 57 for relief. On July 14, 2020, the district court denied the
renewed motion. See ECF No. 73.
On April 05, 2021, this Court denied certiorari in an order entered by the Clerk. See
Appendix at 1. This Court's jurisdiction is invoked under Rule 44 of the Supreme Court Rules,
for Rehearing.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Relevant statutory and constitutional provisions involved in this case are as follows:
The Fifth Amendment provides in relevant part:
"No person shall be held to answer for a capital, or otherwise infamous crime, ... nor
shall any person be subject for the same offence to be twice put in jeopardy of life or
limb; ... nor be deprived of life, liberty, or property without due process of law ... ."
The Fourteenth Amendment of the Constitution provides in relevant part:
"No State shall ... deprive any person of life, liberty or property without due process
of law; nor deny to any person within its jurisdiction the equal protection of the laws."
STATEMENT OF THE CASE AND FACTS IN SUPPORT FOR REHEARING
This court should "find that [Petitioner] has satisfied these conditions for rehearing. The
proffered evidence include[s] the January 20 — 22, 2021 executive order of President Joseph R.
Biden that bans deportation or removability, articles [from Google, articles published by the
Human Rights Defense Center (Prison Legal News), and a Kite from the Rush City Librarian
under Judicial Notice of Changed Country Conditions In Light of The Presence of Coronavirus
Udoh - Page 2

(COVID-19) Pandemic In Nigeria] discussing [the] increasing [presence of COVID-19 pandemic in
Nigeria]:
In this Rule 44 Certification Of Mr. Emem Ufot Udoh, Mr. Udoh swear and avers that
he has a well-founded fear of severe illness and death if he were returned to Nigeria.
Mr. Udoh's life and freedom would be threatened by the unprecedented and
dangerous risk of death brought on by a global Coronavirus (COVID-19) pandemic in
Nigeria due to his age and underlying or pre-existing conditions.
The circumstances in Nigeria have changed due to the COVID-19 epidemic in that
country. Public data and information clearly shows that there are more than 117, 000
number of positive COVID-19 cases in Nigeria, and more the 1 485 number of COVID19 related deaths in Nigeria as of April 12, 2021.
This new evidence of COVID-19 status in Nigeria is material evidence that was
unavailable at the time of the in-absentia removal hearing in April 17, 2019, motion
to rescind the in-absentia order in June/July 2019, and during his appeal to the Board
(BIA) in September 2019 through June 24, 2020.
If Mr. Udoh returns to Nigeria, he will be unable to procure the medication used to
control the Coronavirus and he would face a death sentence. Mr. Udoh's freedom
would be threatened upon return to Nigeria on account of the presence of COVID-19
in Nigeria, and for the fact that it is unknown when the Coronavirus (COVID-19)
vaccination could be available in Nigeria according to Reuters.
Mr. Udoh did not present this new evidence to the immigration court or to the Board
because he only learned of the COVID-19 status in Nigeria two weeks after he filed
his Reply Brief on December 18, 2020, and Mr. Udoh had not yet considered the longterm effect of having a life-threatening disease. Mr. Udoh recently learned of the
COVID-19 state in Nigeria on January 5, 2021 from the MCF — Rush City Librarian.
Mr. Udoh avers that there are various public report regarding the COVID-19
epidemic in Nigeria and the Nigerian government failure to manage the problem to
date. Mr. Udoh notes that there are no treatment centers in Nigeria for COVID-19.
Mr. Udoh is not aware of any and there are no known information regarding the type
of vaccinations or treatments available in Nigeria for COVID-19. If Mr. Udoh is
retuned to Nigeria, Mr. Udoh would have no access to medication for COVID-19 at
any medical facilities in Nigeria.
Mr. Udoh also avers that he suffers from other serious health and medical problems,
including asthma, high blood pressure and fluids in his lungs, that has all resulted
in Mr. Udoh's breathing problems. See the copy of Medical Evidence or Report filed
on September 14, 2020 in this court's record from Hennepin County Medical Center.
Udoh - Page 3

See also Udoh v. Knutson, Civil No. 19-CV-1311 (MJD/HB), Docket No. 87 at 1 - 7
filed on August 7, 2020.
Mr. Udoh avers that he is eligible for asylum and cancellation of removal reliefs by
virtue of his continuous residence in the United States for more ten years. Mr. Udoh
avers that removal would result in an extreme hardship and danger to Mr. Udoh's
life, to Mr. Udoh's wife (Tonya Udoh), and to Mr. Udoh's children (Carson and Cayden
Udoh) given the presence of the global COVID-19 pandemic in Nigeria.
Mr. Udoh avers that he is eligible for voluntary departure relief. Mr. Udoh avers that
he is eligible For A Request for A Hearing on A Decision In Naturalization Proceeding
Under Section 336 With Form N-336. Mr. Udoh avers that he is eligible For A Notice
Of Appeal To The Board From A Decision Of A DHS Officer With Form EOIR-29. Mr.
Udoh avers that he is eligible for An Application for Naturalization With Form N400. Mr. Udoh avers that the January 20 — 22, 2021 executive order of President
Joseph R. Biden bans deportation or removability.
Petitioner's Petition For Review Of The June 24, 2020 Board's Decision And
Pending Appeals In Federal Courts.
Substantive allegations are set forth in Udoh v. Garland, Supreme Court Case No. 20-7565
for brevity purposes. The Department of Justice Administrative Record was filed in the Eighth
Circuit Court of Appeal Case No. 20-2389 on August 28, 2020.
The January 20 - 22, 2021 Executive Order Of President Joseph R. Biden That
Bans Deportation Or Removability.
Undisputed facts show that President Joseph R. Biden satisfied one of his campaigned
promise of the 2020 election by issuing an executive order on January 20 - 22, 2021 that bans
deportation or removability. See Executive Order No. [
entitled ["

],[

] Fed. Reg. [

(January 22, 2021)

"]. Fed. R. Evid. 201. The executive order of President Joe Biden, issued by

President Joseph R. Biden as a restraining order or ban on deportation, admirably constitutes
newly discovered evidence or new evidence on this appeal. The executive order of President Joe
Biden involves a material change in fact, information or law, as it relates to removability, and this
executive order is applicable to all aliens. This executive order merits remanding this case to the
Board or Immigration judge, on the ground that the decision of President Joe Biden occurred
Udoh — Page 4

between January 20, 2021 and January 22, 2021, couple of days after he assumed office on January
20, 2021.
The substantial evidence of the executive order of President Joe Biden indicates a material
change in circumstances that has vitiated all grounds of removability to all aliens because the
executive order puts a pause or ban on removability or deportation. This executive order is a public
accessible decision, and was obtained after the date of the immigration judge's or Board's decision
in this case. This executive order of President Joe Biden is an intervening order of a final regulation
that serves as an independent basis for remand. The executive order of President Joe Biden is a
new material factor pertinent to the issues of this case, and the provisions of the executive order
in its applicability to this case involves a substantial issue of first impression in this court. These
underlying circumstances makes this case of general public interest. Thus, there is an exigent need
to establish a precedent, either in this appellate court or within the Board pursuant to the wisdom
of Feleke v. INS, 118 F.3d 594, 599 — 600 (8th Cir. 1997), in properly construing the meaning of the
new executive order promulgated by President Joe Biden that expressly bans deportation or
removability, and the new law in Session v. Dimaya, affirming the Ninth Circuit holding that 18
U.S.C. §16(b), as incorporated in the Immigration and Nationality Act, is unconstitutional vague.
200 L. Ed 2d 549, 138 S Ct. 1204.
Therefore, under the extraordinary circumstances created by the executive order of
President Joe Biden and the Supreme decision in Session v. Dimaya, 200 L. Ed 2d 549, 138 S Ct.
1204 (2018), remand should favor a proper interpretation, and administration of justice to the
Board's, the Attorney General, and Petitioner's on the implementation of the January 20 - 22, 2021
executive order of President Joseph R. Biden. Petitioner's decision to remove will harm Petitioners'
with U.S. citizen children by depriving them of their liberty interest in family integrity. The right
Udoh - Page 5

not to be separated from one's immediate family is well-established. See Landon v. Plasencia, 459
U.S. 21, 34 (1982)(holding that plaintiffs right to rejoin her immediate family is a right that ranks
high among the interests of the individual).
FORM N-336: Petitioner's Eligibility For A Request For A Hearing On A Decision
In Naturalization Proceeding Under Section 336.
Substantive allegations are set forth in the Administrative Record in Udoh v. Garland,
Eighth Circuit USCA8 Case No. 20-2389 for brevity purposes.
FORM EOIR-29: Petitioner's Eligibility For A Notice Of Appeal To The Board
From A Decision Of A DHS Officer.
Substantive allegations are set forth in the Administrative Record in Udoh v. Garland,
Eighth Circuit USCA8 Case No. 20-2389 for brevity purposes.
FORM N-400: Petitioner's Eligibility For An Application For Naturalization.
Substantive allegations are set forth in the Administrative Record in Udoh v. Garland,
Eighth Circuit USCA8 Case No. 20-2389 for brevity purposes.
REASONS FOR GRANTING THE PETITION FOR REHEARING IN LIGHT OF THE
JANUARY 20 - 22, 2021 EXECUTIVE ORDER OF PRESIDENT JOSEPH R. BIDEN THAT
BANS DEPORTATION OR REMOVABILITY AND THE PRESENCE OF COVID-19 VIRUS
IN NIGERIA THAT CONSTITUTES EXCEPTIONAL, INTERVENING AND/OR
CHANGED CIRCUMSTANCES OR GROUNDS THAT WOULD WARRANT REHEARING
OF THIS PROCEEDING
Appellant notes that this court has charitably construed an Appellant's argument on appeal
under the reasoning applied in United States v. Destefano, 178 Fed. Appx. 613, 615 n.4 (8th Cir.
2006). Appellant respectfully ask this court to liberally construe his arguments. With regards to
all issues and claims, Appellant argues under the reasoning applied in Weyer v. Lincoln County,
388 F.3d 601 (8th Cir. 2004) that this court "consider a newly raised argument [or issues]" for the
first time on appeal. See Weyer; Winegar v. Des Moines Indep. Com. Sch. Dist., 20 F.3d 895, 899
n.2 (8th Cir. 1994). Appellant respectfully ask this court to consider all claims or issues raised
because the claims or issues were "[tjhough not artfully pleaded" in the petitions but these claims
Udoh - Page 6

and arguments are purely legal, requires no additional factual developments, and manifest
injustice would result if these arguments are not considered for appellate review.
Pursuant to Diaz v. Lynch, 824 F.3d 758, 760 — 61 (8th Cir. 2016), the Eighth Circuit Court
of Appeals held that "[Petitioner] motion to reopen [to apply for asylum] is thus time-barred, unless
he demonstrates his application for asylum is "based on changed county conditions. ..." See
§1229a(c)(7)(c)(i),(ii). Evidence of the changed conditions must not have been available or
discoverable at the time of the [2019] hearing. See §1229a(c)(7)(c)(ii)." This Court's jurisdiction is
invoked under 8 C.F.R. §3.2(c)(1994), because of the changed circumstances in Nigeria as required
by 8 C.F.R. §1003.2(c)(3)(ii).
Pursuant to Feleke v. INS, 118 F.3d 594, 599 — 600 (8th Cir. 1997), Petitioner respectfully
motion for leave to adduce additional evidence and "seeks to supplement the record with additional
evidence that was no considered by the Board. Id. Although we are not to take evidence, we may
remand to the Board to consider newly discovered evidence and to create an adequate record. 28
U.S.C. §2347(c); Makonnen, 44 F.2d at 1385. Any additional evidence sought to be adduced must
be material and reasonable grounds must be shown for the initial failure to adduce such evidence
to the agency. Id." Feleke, Id at 599.
The most significant document are the January 20 — 22, 2021 Executive Order Of President
Joseph R. Biden That Bans Deportation Or Removability and two [articles dated May 2020 and
June 2020, and a kite Response dated January 5, 2021, from the Library at MCF-Rush City], an
administrator of [MCF-Rush City Library], outlining [the current state of COVID-19 Pandemic in
Nigeria] and [Petitioner's Rule 44 Certification Of Mr. Emem Ufot Udoh] expressing a belief that
[he] would be subject to [a great and unforeseen risk of severe illness or death brought on by a
global pandemic], on his return to [Nigeria]. This court should "believe that consideration of this
Udoh - Page 7

evidence is crucial to the development of an adequate record in this case. Accordingly, we remand
to the Board pursuant to 28 U.S.C. §2347(c). See Makonnen, 44 F.3d AT 1385." Feleke, Id at 599.
In this motion, Petitioner seeks to adduce evidence on the issue of his eligibility for
cancellation of removal, voluntary departure under §1229c(b)(See Dada v., Mukasey, 554 U.S. 1,
*6 (2008)) because while his appeal in this court and in state court (A20-0633) has been pending,
he has became eligible, by virtue of continuous residence in the United States for more than ten
years. See IIRIRA; 8 U.S.C. §1254(a)(1)(Supp. 1996); 8 U.S.C. §1229b(b)(1)(A)(Supp. 1997); 8
U.S.C. §1229b(d)(1)(Supp. 1997). Therefore, under, the reasoning and remedy applied in Feleke v.
INS, Id at 600, this matter, including whether and to what extent IIRIRA is applicable to Mr.
Udoh, is for the Board to consider in the first instance. Id.
Petitioner ask this court to include an Rule 44 Certification Of Mr. Emem Ufot Udoh or
declaration as newly discovered evidence of the January 20 — 22, 2021 executive order of President
Joseph R. Biden that bans deportation or removability and "changed country conditions" or as new
evidence of such particularized and worsening conditions in Nigeria under Judicial Notice of the
recent public data, evidence, report, and information regarding the presence of COVID-19 virus in
Nigeria. This court, as well as other circuits used 28 U.S.C. §2347(c) to invoke discretionary
authority to remand immigration cases in which 8 U.S.C. 1105a(a)(4) applied, so that new, nonrecord evidence could be admitted on appeal and remanded for consideration by the Board. See
e.g., Makonnen v. INS, 44 F.3d 1378, 1384 -86 (8th Cir. 1995). Pursuant to Diaz v. Lynch, 824 F.3d
758, 760 — 61 (8th Cir. 2016), this court held that "[Diaz] motion to reopen [to apply for asylum] is
thus time-barred, unless he demonstrates his application for asylum is "based on changed county
conditions. ..." See §1229a(c)(7)(c)(i),(ii). Evidence of the changed conditions must not have been
available or discoverable at the time of the [2019] hearing. See §1229a(c)(7)(c)(ii)."
Udoh - Page 8

Petitioner claims that he recently learned of the January 20 — 22, 2021 executive order of
President Joseph R. Biden that bans deportation or removability and the changed conditions in
Nigeria due the presence of the coronavirus (Covid-19) pandemic in Nigeria. This fact
demonstrates a change in conditions in Nigeria between the in-absentia 2019 hearing and his
current petition for review of the June 24, 2020 order denying the motion to reopen. See Zheng v.
Mukasey, 523 F.3d 893, 896 (8th Cir. 2008). Thus, remand is merited in this case, so that the BIA
can consider the motion to reopen the in-absentia order of removal on the basis of new and material
evidence relating to Petitioner's potential eligibility to apply for voluntary departure under
§1229c(b), asylum and/or withholding of removal under 8 U.S.C. §§§1101, 1158, and 1231, or to
raise these new issues before the immigration judge ("M"). Bracic v. Holder, 603 F.3d 1027 (8TH
Cir. 2010)(remanded the matter to the IJ fora for determination of whether the alien was entitled
to a discretionary grant of [voluntary departure,] asylum and/or withholding of removal in light of
all the evidence on the record); Id at 1032(a court reviews an alien due process challenge denovo,
as the question of whether an immigration hearing violates due process is a pure legal issue); Id
at 1033.
Petitioner failure to file a brief at the BIA was due to the lack of access to the prison law
library due to Coronavirus pandemic in light of Flittie v. Solem, 827 F.2d 276, 280 (8th Cir.
1987)(meaningfully access to court would require at least 3 days per week at the Prison law library
under restricted status); Bound v. Smith, 430 U.S. 817 (1977) (prisoner's right of access to court).
The Board of Immigration Appeals should have granted Petitioner's request for an extension of
time for lack of access to the Prison Law Library and to obtain the record and transcripts of the
immigration hearings to meaningfully, adequately and fairly present his case at the Board of
Immigration Appeal, in light of Bound u. Smith, 430 U.S. 817 (1977) (prisoner's right of access to
Udoh - Page 9

court) ; Hebbe v. Pliler, 627 F.3d 338, 342 — 43 (9th Cir. 2010)(possible constitutional violation when
prisoner denied access to prison library, preventing him from filing a brief in appeal of the
[government's order]) reasoning; Skinner v. Switzer, 131 S. Ct. 1289, 1293 — 94 (2011)(held
prisoner's Fourteenth Amendment right of access to evidence to undergo a civil proceeding or
testing in [government] or federal court); Kennedy v. Lockyer, 379 F.3d 1041, 1054 (9th Cir. 2004)
(held that failure to provide Defendant with a complete transcript of prior proceedings had a
"substantial and injurious effect on the jury verdict"); Britt v. North Carolina, 404 U.S. 226, 227
(1971) (the agency must provide an indigent defendant with a transcript when that transcript is
needed for an effective defense or appeal); United States v. MacCollom, 426 U.S. 317, 320 — 21
(1976)(same); State v. Beecroft, 813 N.W.2d 814, 842 (Minn. 2012)(recognized that a "meaningful
access to justice and the due process right to present a complete defense encompass a right to the
basic tools of an adequate defense"). This implicates [Petitioner's] right of access to court under
Bound v. Smith.
The constitution guarantees prisoners the right to a meaningful access to the courts. Bounds
v. Smith, 430 U.S. 817, 828 (1977) (Prisoner have fundamental constitutional right to adequate,
effective and meaningful access to court to challenge violations of constitutional rights); Kristian v.
Dep't of Corr., 541 N.W.2d 623, 628 (Minn. Ct. App. 1996)(prison inmate have a constitutional
right to access to the court that derives from the due process). Thus under Bounds v. Smith,
Petitioner has a right to the adjudication of his [immigration or removal] appeal. As such, not
reopening the removal proceeding will unreasonably interfere with Petitioner's due process and
fundamental right to access to court under Bounds v. Smith; Kristian v. Dep't of Corr and under
Marbury v. Madison holding, ld at 137, where there is a legal right, there is also a legal remedy
by suit, or action at law, whenever that right is invaded. ld. Christopher v. Harbury, 536 U.S. 403,
Udoh - Page 10

415 (2002) (to establish an unconstitutional denial of access to the courts, a prisoner must show a
lost opportunity to pursue a non-frivolous claim).
Remand should apply to this case when the prison "restrictions" or regulation due to
COVID-19 is a "systematic denial" of the right of access constituting such a "fundamental
deprivation that it is an injury in itself." Blaise v. Fenn, 48 F.3d 337, 340 (8Th Cir. 1995)(quoting
Hershberger v. Scaletta, 33 F.3d 955, 956 (8th Cir. 1994). The "restrictions" in this case, does rise
to the level of a systematic deprivation, and therefore Petitioner respectfully move this court for A
Leave to Reopen under these circumstances. See State v. Udoh, Case No. A19-1129 (Minn
December 9, 2020) Order from the Chief Justice of the Minnesota Supreme Court noting that
"Petitioner's motion includes information on restrictions imposed by the Department of
Corrections during the pandemic." There is no statutory provision for the reopening of a removal
proceeding, and the regulations do not specify the condition under which a motion to reopen must
be granted. Khalaj v. Cole, 46 G..3d 828, 833 (8th Cir 1995(citing INS v. Doherty, 502 U.S. 314, 321
-23 (1992)). The applicable regulation indicates that a motion to reopen for additional evidence
must state new and material facts that were not available and could not have been discovered or
presented at the prior hearing. 8 C.F.R. §3.2(c)(1994), such as the changed circumstances in
Nigeria as required by 8 C.F.R. §1003.2(c)(3)(ii).
Remand is merited in this case because the BIA or IJ does not know and has not appreciated
the seriousness of the January 20— 22, 2021 executive order of President Joseph R. Biden that bans
deportation or removability and these changed country conditions due the presence of COVID-19
in Nigeria, that both federal and state courts in:
United States v. Michaels, 8:16-CR-76-JVS (C.D. Cal. March 26, 2020); United States
v. Colvin, No. 3:19-CR-179-JBA, 2020 WL 1613943 (D. Conn. April 2, 2020); United
States v. Jepsen, No. 3:19-CV-00073-VLB, 2020 WL 1640232 (D. Conn. April 1, 2020);
Udoh - Page 11

Hartford Courant (March 24, 2020); In Re: Court Operations Under The Exigent
Circumstances Created By COVID- 19 (D. Conn. April 7, 2020); United States v.
Powell, No. 1:94-CR-316-ESH (D.D.C. March 28, 2020); United States v. Meekins, No.
1:18-CR-222-APM (D.D.C. March 31, 2020); United States v. Jaffee, No. 19-CR-88RDM (D.D.C. March 26, 2020); United States v. Mclean, No. 19-CR-380 (D.D.C. March
28, 2020); United States v. Harris, No. 1:19-CR-356-RDM (D.D.C. March 26, 2020);
United States v. Tovar, No. 19-CR-341-DCN, Dkt. No. 42 (D. Idaho April 2, 2020);
United States v. Davis, No. 1:20-CR-9-ELH, 2020 WL 1529158 (D. Md. March 30,
2020); United States v. Underwood, No. 8:18-CR-201-TDC (D. Md. March 31, 2020);
United States v. Barkma, No. 19-CR-0052 (RCJ-WGC), 2020 U.S. Dist. LEXIS 45628
(D. Nev. March 17, 2020); United States v. Claudio-Montes, No. 3:10-CR-212-JAGMDM, Docket No. 3374 (D.P.R. April 1, 2020); United States u. Copeland, No. 2:05CR-135-DCN at 7 (D.S.C. March 24, 2020); United States v. Hakim, No. 4:05-CR40025-LLP (D.S.D. April 6, 2020); United States v. Kennedy, 18-CR-20315 (JEL) (E.D.
Mich. March 27, 2020); United States u. Marin, No. 15-CR-252, Dkt. No. 1326
(E.D.N.Y. March 30, 2020); United States v. Foster, No. 1:14-CR-324-02, Dkt. No. 191
(M.D. Pa. April 3, 2020); United States v. Garlock, No. 18-CR-00418-VC-1, 2020 WL
1439980 (N.D. Cal. March 25, 2020); In the Matter of The Extradition of Alejandro
Toledo Manrique, No. 19-MJ-71055-MAG, 2020 WL 1307109 (N.D. Cal. March 19,
2020); United States v. Bolston, No. 1:18-CR-382-MLB (N.D. Ga. March 30, 2020);
Mays v. Dart, No. 20 C 2134 (April 7, 2020); United States v. Hernandez, No. 18-CR20474 (S.D. Fla. April 2, 2020); United States u. Grobman, No. 18-CR-20989 (S.D. Fla.
March 29, 2020); Amended Order, United States v. Perez, No. 19-CR-297-PAE, at 1
(S.D.N.Y. March 19, 2020); United States v. Resnik, No. 14-CR-910-CM, 2020 WL
1651508 (S.D.N.Y. April 2, 2020); United States v. Stephens, No. 15-CR-95-AJN, 2020
WL 1295155 (S.D.N.Y. March 19, 2020); United States v. Zukerman, No. 1:16-CR194-AT (S.D.N.Y. April 3, 2020); United States u. Perez, No. 17-CR-515-3-AT
(S.D.N.Y. April 1, 2020); United States v. Muniz, No. 4:09-CR-199 (S. D. Tex. March
30, 2020); United States v. Hector, No. 2:18-CR-3-002 (W. D. Va. March 27, 2020); see
also United States v. Hector, No. 18-CR-3 (4Th Cir. March 27, 2020); United States v.
Edwards, No. 6:17-CR-00003 (W. D. Va. April 2, 2020); Xochichua-Jaimes v. Barr,
No. 18-CV-71460 (9Th Cir. March 23, 2020); Castillo u. Barr, No. 20-CV-605 -TJHAFM, at 10 (C.D. Cal. March 27, 2020); Jimenez u. Wolf, No. 18-10225-MLW (D. Mass.
March 26, 2020); Jovel v. Decker, No. 12-CV-308-GBD at 2 (S.D.N.Y. March 26, 2020);
Coronel v. Decker, No. 20-CV-2472-AJN at 10 (S.D.N.Y. March 27, 2020); Basank v.
Decker, No. 20-CV-2518-AT at 7, 10 (S.D.N.Y. March 26, 2020); Thakker v. Doll, No.
20-CV-480-JEJ, at 8 (M.D. Pa. March 31, 2020); and Karr u. Alaska, Nos. A13630/13639/13640 (Alaska March 24, 2020);

have held to constitutes a showing, sufficient for extraordinary or change circumstances for
extraordinary reliefs, including the January 20 - 22, 2021 executive order of President Joseph R.
Biden that bans deportation or removability. Remand is merited under these circumstances

Udoh - Page 12

because the BIA or IJ has a discretionary decision in reopening the proceeding on
sua sponte,

its own motion,

"to
as permitted by 8 C.F.R. §1003.2(a) to give Petitioner a reasonable opportunity

that is] based on
apply or reapply for [voluntary departure,] asylum or withholding of [removal
(ii), which
changed circumstances arising in the country of nationality," 8 C.F.R. §1003.2(c)(3)
applies to this motion.
consider
This court has repeated held that because an allegation of wholesale failure to
to review this
evidence implicates due process, remand is appreciated for the BIA or IJ
tating that the
constitutional question. See Tun v. Gonzales, 485 F.3d 1014, 1025 (8th Cir. 2007)(s
l proceeding
Fifth Amendment's Due Process Clause entitles an alien to fair hearing in remova
where he may "fairly present evidence, offer arguments, and develop the record");

See also 8 U.S.C.

does support
§1229a(b)(1)("[t]he immigration judge shall .... receive evidence ...."). The record
er his new and
Petitioner's claim that neither the immigration judge nor the BIA had consid
material evidence submissions, and this lack was due to the in-absentia order and the BIA's failure
the COVID-19
to grant Petitioner the record and extension of time to file an opening brief due to
tes Petitioner's

pandemic at the MCF-Rush City Facility where Petitioner is detained, does implica

bly explained
due process argument Remand is merited in this case because the alien had reasona
/

removal reliefs
his failure to initially request voluntary departure, asylum, and/or withholding of
on the basis of newly discovered evidence due to the in-absentia order. Remand gives Petitioner
for asylum and
the opportunity to make a timely application for voluntary departure, or to apply
d in light of the
withholding of removal until his pending federal and state court cases are resolve
allegations
supporting changed country conditions due to the presence of COVID-19 in Nigeria
l and Remand

and Rule 44 Certification Of Mr. Emem Ufot Udoh set forth in this motion. Reversa

ing, seeking to

allows Petitioner a reasonable opportunity to file the motion in the removal proceed
Udoh - Page 13

present new evidence to support his claim for relief under the United Nations Convention Against
Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment (CAT) Dec. 10, 1984,
1465 U.N.T.S. 85, 23 I. L. M. 1027.
In this case, Petitioner has shown how the procedural error would have changed the
outcome of the immigration removal proceeding because he has offered new evidence or advanced
new issues that would have established his entitlement to asylum, voluntary departure and/ or
withholding of removal. Because he has done so, Mr. Udoh has shown prejudice, to the extent, that
he has established a prima facie case for the underlying substantive relief sought. According, just
like in Feleke, Id at 599 - 600, where this court remands for consideration of two unsworn letters
that were never presented to the agency and indeed were not written by the author, until after the
Board of Immigration appeals decision under review pursuant to the authority of 28 U.S.C.
§2347(c) and this court decision in Makonnen, 44 F.2d at 1385, this court should grant a similar
relief in this case consistent with Feleke's opinion, Id, to give Petitioner an opportunity to apprise
the immigration judge of theses changed conditions in Nigeria because Petitioner did not know of
the COVID-19 status in Nigeria at the time of his original proceedings and never failed to notify
the immigration judge of theses changed conditions in 2018 through 2019 because the evidence
was not previously available.
CONCLUSION
Wherefore, Petitioner pray the court reopens this proceeding.
Dated: April 12, 2021

Respectfully Submitted,
U
Emem U. Udoh, 245042
Pro se Litigant,
7600 525TH Street
Rush City, MN 55069

Udoh — Page 14

CERTIFICATE OF COMPLIANCE
Pursuant to Rule 33.2(b), Petitioner certifies that this Petition complies with the page
limitation in that rule. According to Microsoft Word 2019, the word processing program used to
produce this Petition, it contains 14 pages.
Respectfully Submitted,

Dated: April 12, 2021

C
Emem U. Udoh,
Pro se Litigant, 245042
7600 525th Street
Rush City, MN 55069
CERTIFICATE OF SERVICE
On April 12 2021, Petitioner hereby certify that a copy of the following documents:
Motion for Leave to Proceed In Forma Pauperis On Rehearing;
Petition For Rehearing; and MC, tbkl- Gattraitiert OF Mr. Emem U14-11a4t; anti
Appendix.
was served upon the Clerk of the United States Supreme Court, properly addressed to Clerk's
Office at One First Street North East, Washington, D.C. 20543, and on every other person required
to be served by U.S. Mail as follows:
KEITH ELLISON
Minnesota Attorney General
1400 Bremer Tower, Suite 1800
445 Minnesota Street
St. Paul, MN 55101

Dated: April 12, 2021

MICHAEL 0. FREEMAN
Hennepin County Attorney
JONATHAN P. SCHMIDT
Assistant Hennepin County Attorney
C-2000 Government Center
300 South Sixth Street
Minneapolis, MN 55487
Respectfully Submitted,

Emem U. Udoh,
Pro se Litigant, 245042
7600 525th Street
Rush City, MN 55069
Udoh — Page 15

IN THE
SUPREME COURT OF THE UNITED STATES
No. 20-7389

EMEM UFOT UDOH,
Petitioner,
vs.
BECKY DOOLEY, Warden, Moose Lake,
Respondent.
RULE 44 CERTIFICATION OF MR. EMEM UFOT UDOH
In this Certification, Mr. Udoh swear and avers that he has a well-founded fear
of severe illness and death if he were returned to Nigeria. Mr. Udoh's life and
freedom would be threatened by the unprecedented and dangerous risk of death
brought on by a global Coronavirus (COVID-19) pandemic in Nigeria due to his
age and underlying or pre-existing conditions.
Mr. Udoh avers that this petition is presented in good faith. and not for delay
because the circumstances in Nigeria have changed due to the COVID-19
epidemic in that country. Public data and information clearly shows that there
are more than 117 000 number of positive COVID-19 cases in Nigeria, and more
the 1 485 number of COVID-19 related deaths in Nigeria as of April 12, 2021.
Mr. Udoh avers that this petition is presented in good faith and not for delay
because this new evidence of COVID-19 status in Nigeria is material evidence
that was unavailable at the time of the in-absentia removal hearing in April 17,
2019, motion to rescind the in-absentia order in June/July 2019, and during his
appeal to the Board (BIA) in September 2019 through June 24, 2020.
Mr. Udoh avers that this petition is presented in good faith and not for delay
because if Mr. Udoh returns to Nigeria, he will be unable to procure the
medication used to control the Coronavirus and he would face a death sentence.
Mr. Udoh's freedom would be threatened upon return to Nigeria on account of the
te
cei
presence of COVID-19 in Nigeria, and for the fact that it is
RULE 44 CERTIFICATION - By Udoh - Page 1

APR 2 3 2021
QFFICE OF THE CLERK
sU REME COURT U.S.

ion c
ould
be av
ailab
le

Uaoh

in N
citio
igeri
n is p
a acc
this
r
e
s
ordin
zned new evid ented in
g to
g
o
e
co-cdt 4 on De f the COV nce to the ood faith
"-rm
effec cember ID-19 sta immigra and n
v.&
o o
tus i
18,
tion
t of
CO
Abra VID-19 having a 2020, an n Nigeria court or dela
rian.
to th
d
li
state
two w
e
in N fe-threat Mr. Ud
/2
e
e
k
s
oh h
igeri
enin
.
after
that
g
a
a
d
on Ja
d
are v this peti
nuar isease. M not yet
bean
t
ariou
ion i
y 5,
o th
/3. ate
2021 r. Udoh
s tha e Nigeria s public s presen
from
te
tt
n
re
L
the
not a here are governm port reg d in goo
ardin
ware
d fai
ent f
no tr
"ec‘i
ail
th
g
of
na
e
boxed tions or t any and atment ce ure to ma the COV and not
ther
to N
nage
reat
ID-1
nte
T
a
he iv iy med igeria, M ments av e are no k rs in Nig the prob 9 epide
ailab
mic y
r. Ud
ical f
nown
lem
eria
i
l
n
t
a
o
e
f
o dat
ciliti
fis trot
es in h would h in Niger informat or COV
e. M
. Udo
ID-1
ia
io
Nige
ave n
ha
Qtego:c
9, M r.
ria.
o acc for COV n regard
ause lso avers
i
e
n
I
D
s
g
s to m
-19.
the t r.
he su
that t
sthm
I
ype
e
f
f
h
d
M
f
a, hig
is
icatio
e
Execti
h blo rs from o petition
n for r. Udoh i
tidoh
s
i
'
o
t
COV
Septe s breathin d pressu her serio s present
I
D
19
e
us he
re
g
mber
alth d in good
14, 2 problems and flui
See a
a
ds in
fa
020 i
n
.
l
n this See the
his lu d medica ith and
filed so Udoh v
c
opy o
l pro
not fo
. Knu
ngs,
on A
court
b
ugus
t 7, 2 tson, Civil 's record f Medica that has a lems, in r delay
fr
l
c
020.
No. 1
l
Mr.
9-CV om Henn Evidence l resulted luding
Udo
-1311
h
ep
o
in M
beca
r.
(MJD in Count r Report
use h avers tha
f
y
iled o
/HB)
t this
e is e
his c
M
e
d
,
l
n
on
ic
ig
p
Dock
that r tinuous r ible for a etition is
et No al Center
.
. 87
es
sy
e
p
at 1 to M moval wo idence in lum and resented
r. Ud
canc
in go
uld r
the U
oh
el
es
od fa
Udoh
ith a
) giv 's wife (T ult in an nited Stat lation of
n
en th
r
e
o
e
e
s
n
x
m
y
t
f
r
o
a
o
e
e pre
r mo
val r d not fo
me h
Udoh
s
r
e
ence
r
a
e
Mr.
of th ), and to M rdship an ten year liefs by v delay
Udo
e
s
i
d
h
r
.
globa
r
tue o
Mr. U
beca
f
l CO . Udoh's c danger to
use h avers tha
d
o
h
VIDe is e
h
t this
a
M
i
v
l
d
r
e
.U
re
rs
19 pa
ligib
le for petition
ndem n (Carson doh's lif
Mr. U
is
e
ic in
volun
Nige and Cayd ,
doh a
tary d presente
beca
r
e
i
d
n
a.
ve
epart
u
ure r in good f
Natu se he is rs that th
a
e
lief.
ith a
is
raliza
e
nd
tion P ligible F petition
not f
is pre
rocee
or A
or de
s
d
e
R
i
n
n
lay
eque
ted in
g Un
Udo
der S
st Fo
h-P
g
o
od fa
ectio
age 2
ith a
n 336 r A Hea
nd
ring
With
On A not for d
Form
el
Dec
N-33
ision ay
6.
In

IN THE
SUPREME COURT OF THE UNITED STATES
NO. 20-7389
EMEM UFOT UDOH,
Petitioner,
vs.
BECKY DOOLEY, Warden, Moose Lake,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS ON THIS
PETITION FOR A wfttifi-efi-eeintettttrit REME.AkiNer
Petitioner, Emem Ufot Udoh, hereby move this court for leave to proceed in
forma pauperis ("IFP") on this petition for rehearing.
Petitioner, Emem Ufot Udoh, motion for leave to proceed in forma pauperis on
appeal was granted on July 29, 2020 by The Hon. Paul A. Magnuson in Udoh v.
Dooley, 16-cv-4174-PAM-HB (D.Minn. July 19, 2020 Order). Petitioner, Emem Ufot
Udoh, has attached an affidavit or declaration to support this motion for leave to
proceed in forma pauperis.
Petitioner, Emem Ufot Udoh, the undersigned declare under penalty of perjury
that the foregoing information contained herein is true and correct. 28 U.S.C. §1746;
Minn. Stat. §358. 116.
Executed on: April 12, 2021

Respectfully Submitted,

tAleUrckEmem U. Udoh,
Pro se Litigant, 245042
7600 525th Street, Rush City, MN 55069

CASE 0:16-cv-04174-PAM-HB Doc. 77 Filed 07/29/20 Page 1 of 2

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Emem Ufot Udoh,

Civ. No. 16-4174 (PAM/HB)
Petitioner,

v.

ORDER

Becky Dooley, Warden, MCF — Moose
Lake Prison,
Respondent.

This matter comes before the Court on Petitioner Emem Ufot Udoh's Motion for
Leave to Proceed In Forma Pauperis on Appeal.
The Court previously granted Udoh leave to proceed in a previous appeal without
payment of fees or costs. (Docket No. 43.) Udoh has submitted documentation showing
that he remains unable to pay such costs. (Docket No. 76-1.) Udoh may proceed with his
appeal in forma pauperis. 28 U.S.C. § 191_5; see Fed. R. App. P. 24)(31 ("A party who
was permitted to proceed in forma pauperis in the district-court action . .. may proceed on
appeal in forma pauperis without further authorization ....").
The Rule also provides that an appeal may not be taken in forma pauperis if the
Court certifies that it is not taken in good faith. Id. R. 24(a)(3)(A). While the Court is
convinced that it correctly interpreted Udoh's Rule 60(b) motion as a successive habeas
petition and dismissed it for lack of prior authorization from the Eighth Circuit, his appeal
is not frivolous.

CASE 0:16-cv-04174-PAM-HB Doc. 77 Filed 07/29/20 Page 2 of 2

Accordingly, IT IS HEREBY ORDERED that Petitioner Emem Ufot Udoh's
Motion for Leave to Proceed In Forma Pauperis on Appeal (Docket No. 76) is GRANTED.

Dated: July 29, 2020

s/ PaufA. gilagnuson
Paul A. Magnuson
United States District Court Judge

2

Page 1 of5

IN THE
SUPREME COURT OF THE UNITED STATES
NO. 20-7389

EMEM UFOT UDOH,
Petitioner,
vs.
BECKY DOOLEY, Warden, Moose Lake,
Respondent.
AFFIDAVIT OR DECLARATION IN SUPPORT FOR MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS ON PETITION FOR REHEARING
(Long Form)

Affidavit in Support of the Motion

Instructions

l am a plaintiff or petitioner in this case and declare
that I am unable to pay the costs of these proceedings
and that I am entitled to the relief requested. I declare
under penalty of perjury that the information below is
true and understand that a false statement may result
in a dismissal of my claims.

Complete all questions in this application and then sign it.
Do not leave any blanks: if the answer to a question is
"0," "none," or "not applicable (N/A)," write that
response. If you need more space to answer a question or
to explain your answer, attach a separate sheet of paper
identified with your name, your case's docket number,
and the question number.

Signed:

Date.

AP

1212021

For both you and your spouse estimate the average amount of money received from each of the following
sources during the past 12 months. Adjust any amount that was received weekly, biweekly, quarterly,
semiannually, or annually to show the monthly rate. Use gross amount, that is, amounts before any
deductions for taxes or otherwise.
Income amount expected
next month

Average monthly income
amount during the past 12
months
You
Spouse

Income source

You

Spouse

Employment

$

0

$

$

C)

$

Self-employment

$

0

$

$

0

$

Income from real property (such as rental income)

$

$

$

0

$

AFFIDAVIT OR DECLARATION - BY UDOH

0

Page 2 of 5

Interest and dividends

$

Gifts

$

Alimony

$

Child support

$

Retirements (such as social security, pensions
annuities/insurance)
Disability (such as social security, insurance
payments)

$
$

0
0
0
0
0
0

$

$

o

$

$

$

0

$

$

$

a

$

$

$

0

$

$

$

$

$

.0

$

$

$

a

$

$

'0

$

0

Unemployment payments

$

Public-assistance (such as welfare)

$

0

$

Other (specini):

$

0

$

Total monthly income:

$

0

0.00

)

0.00

$

$

0

$

$
$

0.00

$

0.00

List your employment history for the past two years, most recent employer first. (Gross mon hly pay is before
taxes or other deductions.)

Employer

Dates of employment

Address

Gross
monthly pay

NIA

NIA

NIA-

$ 0

rtiA

NIA

NIA

$ 0

List your spouse's employment history for the past two years, most recent employer first (Gross monthly pay
is before taxes or other deductions.)

Employer

Dates of employment

Address

Gross
monthly pay
$
$
$

How must cash do you and your spouse have? $
Below, state any money you or your spouse have in bank accounts or in any other financial institution.
Financial institution

$

0

Amount your
spouse has
$

$

0

$

Amount you have

Type of account

NIA-

NIA

MI h

NIA

AFFIDAVIT OR DECLARATION - BY UDOH

Page 3 of 5

rkIA-

$

MIN

$

0

List the assets, and their values, which you own or your spouse owns. Do not, list clothing and ordinary
household furnishings.
Assets owned by you or your spouse
Home (Value)

$

b

Other real estate (value)

$

0

Motor vehicle #1 (value)

$

()

Make and year:
Model:

N IA-

Registration #:
Motor vehicle #2 (value)
Make and year:

14 IA

Model:
Registration #:
Other assets (Value)

$

0

Other assets (Value)

$ 0

State every person, business or organization owing you or your spouse money, and the amount owed.
Person owing you or your spouse
money
NIA
NIA

MR

Amount owed to your spouse

Amount owed to you
$

0

$

$

0

$

$

0

$

State the persons who rely on you or your spouse for upport.
Name (or, if under 18, initials only)

C- LI .

c- u .

AFFIDAVIT OR DECLARATION - BY UDOH

Relationship

aon
Stn

Age

g its
2
U

Page 4 of 5

8.

Estimate the average monthly expenses of you and your family. Show separately the amounts paid by
your spouse. Adjust any payments that are made weekly, biweekly, quarterly, semiannually, or annually
to show that monthly rate.

Your Spouse

You
Rent or home-mortgage payment (includialot rented for mobile home)
❑ No
Are real estate taxes included? ]Yes
Is property insurance included?FlYes
In No

$

Utilities (electricity, heating fuel, water, sewer, and telephone)

$

tO

Home maintenance (repairs and upkeep)

$

0

Food

$

4-0

Clothing

$

to

$

Laundry and dry-cleaning

$

10

$

Medical and dental expenses

$

ib

Transportation (not including motor vehicle payments)

$

0

Recreation, entertainment, newspapers, magazines, etc.

0

$

$
$

$
$

0

Insurance (not deducted from wages or included in mortgage payments)

WA-

Homeowner's or renter's:

$

0

Life:

$

0

Health:

$

0

Motor Vehicle:

$

Other:

$

Taxes (not deducted from wages or included in mortgage payments) (specify):

$

$

Installment payments

0
D
0

$
$
$
$
$
$

MIA

Motor Vehicle:

$

0

$

Credit care (name):

$

6

$

Department store (name):

$

0

$

$

0

$

$

0

$

Other:
Alimony, maintenance, and support paid to others

AFFIDAVIT OR DECLARATION - BY UDOH

Page 5 of 5

Regular expenses for operation of business, profession, or farm (a ttach

$
$

Other (specify)

9.

$

a)

$

Total monthly expenses:

$

0

detailed statement)

it

0.00

$

0.00

Do you expect any major changes to your monthly income or expenses or in your assets or liabilities
during the next 12 months?
Yes

INNo

If yes, describe on an attached sheet.

Have you paid — or will you be paying — an attorney any money for services in connection with this
Eg No
case, including the completion of this form? EYes
If yes, how much? $
If yes, state the attorney's name, address, and telephone number:

Have you paid — or will you be paying— anyone other than an attorney (such as a paralegal or a typist any
No
money or services in connection with this case, including the completion of this form? ❑ Yes
If yes, how much? $
If yes, state the person's name, address, and telephone number:

Provide any other information that will help explain why you cannot pay the cost of these proceedings.
Qtttretiti ACOLIV501-0-4 gra

It't er"1114- eSt liatthek

11)

frageA °II Girt

Identify the city and state of your legal residence.

HI A

Your daytime phone number:
Your age:

Alf1/4-

Your years of schooling.

14 I A

NIA

Execaut 0)\ AVEX,

Elluali U. tkrivt‘i a tai'L
AFFIDAVIT OR DECLARATION - BY UDOH

1600 5a51C1 Stittzt
,
Uft Qthti 141 5so61

IN THE
SUPREME COURT OF THE UNITED STATES
No. 20-7389

EMEM UFOT UDOH,
Petitioner,
vs.
BECKY DOOLEY, Warden, Moose Lake,
Respondent.
APPENDIX

April 5, 2021 Order
Respondent's Waiver
Eighth Circuit Judgment
District Court Order

Udoh — Page 4

Pages
1— 1
2 —2
3 —3
4—8

Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
April 5, 2021

Scott S. Harris
Clerk of the Court
(202) 479-3011

Mr. Emem Ufot Udoh
Prisoner ID #245042
7600 525th Street
Rush City, MN 55069

Re: Emem Ufot Udoh
v. Becky Dooley, Warden
No. 20-7389

Dear Mr. Udoh:
The Court today entered the following order in the above-entitled case:
The petition for a writ of certiorari is denied.

Sincerely,

Scott S. Harris, Clerk

WAIVER
SUPREME COURT OF THE UNITED STATES
No. 20-7389
Becky Dooley, Warden

Emem Ufot Udoh
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
•
Please check the appropriate box:
Q.

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Jon Schmidt

Date:

3/15/21

Digitally signed by Jon Schmidt
Date: 2021.031 5 10:26:02 -0500'

(Type or print) Name Jonathan P. Schmidt
Mr.

0 Mrs.

0 Ms.

Firm

Hennepin County Attorney's Office

Address

C2000 Government Center, 300 S. 6th Street

City & State

Minneapolis, Minnesota

Phone

222-543-4588

0 Miss

Zip 55487
Email Jon.Schmidt@hennepin.us

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Emem Ufot Udoh, OID # 245042
MCF - Moose Lake
1000 Lake Shore Drive
Moose Lake, MN 55767

CASE 0:16-cv-04174-PAM-HB Doc. 84 Filed 10/26/20 Page 1 of 1
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2577

Emem Ufot Udoh
Petitioner - Appellant
v.
Becky Dooley, Warden, Moose Lake
Respondent - Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:16-cv-04174-PAM)

JUDGMENT

Before LOKEN, COLLOTON, and BENTON, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
October 26, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 20-2577 Page: 1

Date Filed: 10/26/2020 Entry ID: 4969672

CASE 0:16-cv-04174-PAM-HB Doc. 73 Filed 07/14/20 Page 1 of 5

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Civ. No. 16-4174 (PAM/HB)

Emem Ufot Udoh,
Petitioner,

ORDER

v.
Becky Dooley, Warden, MCF — Moose
Lake Prison,
Respondent.

This matter comes before the Court on Petitioner Emem Ufot Udoh's Renewed
Motion to Vacate the Judgment and Order under Rule 60(b)(6).
Udoh was convicted in state court of criminal sexual conduct involving contact with
his two minor stepdaughters. State of Minnesota v. Udoh, No. A14-2181, 2016 WL,
687328 (Minn Ct App. Feb. 22, 2016). Udoh sought federal habeas relief, raising six
grounds for relief. This Court denied Udoh's habeas petition on the merits on July 6, 2017.
(Docket No. 19.) Udoh then moved under Rule 59 to amend his judgment, which this
Court denied because Udoh presented additional argument on a claim he had failed to
present to the state courts. (Docket No. 31.) Udoh then requested that this Court reconsider
its decision to deny a certificate of appealability. Udoh's request was denied and the Eighth
Circuit affirmed. (Docket Nos. 43, 49.)
Approximately two years later, Udoh sought to reopen this proceeding; the Eighth
Circuit denied Udoh authorization to file a successive habeas petition. (Docket No. 54.)
Udoh then moved in this Court under Rule 60(a) to vacate judgment asserting that victims

CASE 0:16-cv-04174-PAM-HB Doc. 73 Filed 07/14/20 Page 2 of 5

had recanted their trial testimony. This Court denied Udoh's request because a state
postconviction matter was still ongoing. (Docket No. 58.) Udoh moves anew under Rule
60 to vacate judgment.
When reviewing a purported Rule 60(b) motion following dismissal of a habeas
petition, courts are to conduct "a brief initial inquiry to determine whether the allegations
in the Rule 60(b) motion in fact amount to a second or successive collateral attack under
either 28 U.S.C. § 2255 or § 2254." Boyd v. United States, 304 F.3d 813. 814 (8th Cir.
2002). A Rule 60(b) motion constitutes a successive habeas claim if it asserts "a federal
basis for relief from a state court's judgment of conviction" or attacks the "federal court's
previous resolution of the claim on the merits." Williams v. Kelley, 858 F.3d 464. 470 (8th
Cir. 2017) (quotation and emphasis omitted). Conversely, no habeas claim is presented if
the Rule 60(b) motion attacks a defect in the previous federal habeas proceedings or a
previous ruling precluding a merits determination was in error. Id. (citing Gonzalez v.
Crosby, 545 U.S. 524. 532 n.4 (2005)).
Here, Udoh's Rule 60(b) motion attacks this Court's previous resolution of his
habeas claim on the merits. Udoh seeks to vacate this Court's decision, arguing that a
March 2, 2020, state court decision concludes that Udoh exhausted a particular claim on
direct appeal. (Docket No. 70, at 3-4.) But contrary to Udoh's arguments that this Court
found his claims to be unexhausted and procedurally barred, this Court decided Ground
Four of his habeas petition—the claim he asserts was decided in error—on the merits,
finding that the state courts' resolution of the claim was not unreasonable or contrary to
federal law. (Docket No. 19, at 8-10.)
2

CASE 0:16-cv-04174-PAM-HB Doc. 73 Filed 07/14/20 Page 3 of 5

Rather than correct an error in the previous judgment, Udoh seeks to litigate his
habeas claim, asserting "Respondent perpetrated fraud on the Court and on Petitioner" by
excluding exculpatory evidence. (Id. at 23-24.) The evidence Udoh references is
"impeachment evidence related to the threats, demands, the pressure, the coaching, the
coercions, the benefits, and the promises made to [the two minor victims] to give a trial
testimony against [Udoh] in 2014." Id. at 24.) Udoh then explains a lengthy cause-andeffect chain: withholding this evidence denied Udoh due process, which denied him the
right to full and fair access to the courts, which impugns the federal habeas proceeding
leading to denial of his habeas petition. (Id.) Thus, Udoh asserts that the previous habeas
decision is invalid because "this court did not consider these alleged misrepresentations,
mistake, inadvertence, surprise, excusable neglect, fraud, etc., by Respondent when this
court denied [Udoh's] writ of habeas corpus." (Id.) Habeas petitions, not Rule 60, are the
proper vehicle to relitigate or make new claims for relief from a conviction. United States
v. Matlock, 107 F. App'x 697. 698 (8th Cir. 2004)_("This court has consistently held that
inmates may not bypass section 2244(b)(3)'s requirement for authorization by purporting
to invoke some other procedure.").
Moreover, Udoh fails to demonstrate "extraordinary circumstances" that would
justify relief from judgment under Rule 60(b)(6). Gonzalez, 545 U.S. at 535. While Udoh
himself does not describe in detail the facts that constitute the fraud upon which he relies,
another court in this District observed in one of Udoh's cases stemming from his state court
conviction:

3

CASE 0:16-cv-04174-PAM-HB Doc. 73 Filed 07/14/20 Page 4 of 5

In April 2018, Emem sought post-conviction relief in state court on various
grounds, including two affidavits allegedly written by K.K.W. and K.C.W.
In those affidavits, K.K.W. and K.C.W. recanted their prior testimony and
swore that Emem had not sexually abused them. The affidavits were filed in
Hennepin County District Court, and an evidentiary hearing was held to
determine whether Emem was entitled to post-conviction relief based on the
victims' recantations. On direct examination by Emem (appearing pro se),
both girls testified that Emem had not sexually abused them and that they
had been coerced into testifying against Emem at his 2014 trial. The court
found that the girls' testimony was not credible, that the Udohs had
orchestrated the girls' recantations, and that Emem was not entitled to postconviction relief.
Udoh v. Minn. Dep't of Human Servs., No. 16-cv-3119, 2020 WL 2468743 at *1 (D.
Minn. May 13, 2020) (Schiltz, J.) (citations omitted). The court further explained:
The [state] court's decision was based in part on a series of recorded jail calls
between the Udohs. In one call, Emem spelled the word "recantation" for
Tonya. In others, the Udohs quoted sections of what would ultimately
become the victims' affidavits back and forth to each other, editing as they
went. And in yet another, the Udohs discussed questions that their daughters
were likely to face at the upcoming evidentiary hearing along with proposed
answers.
Id. at *1 n.3. The serious doubts as to the veracity of Udoh's claims expressed by these
courts undercut any extraordinary circumstances that could underpin Udoh's Rule 60
motion.
Because Udoh's Rule 60 motion is a second or successive habeas claim, this Court
must either dismiss it or transfer it to the Eighth Circuit Court of Appeals. 28 U.S.0
2244(b)(31; Boyd, 304 F.3d at 814. Because Udoh has already brought a version of the
present claim in a prior habeas petition, this Court will dismiss it. 28 U.S.C. § 2244(1A11.
Udoh has demonstrated he understands that he must seek approval from the Eighth Circuit
prior to filing additional habeas claims. (Docket No. 54 (January 27, 2020 Eighth Circuit

4

.

CASE 0:16-cv-04174-PAM-HB Doc. 73 Filed 07/14/20 Page 5 of 5

Order denying authorization for file a successive habeas petition).) Accordingly, it is
appropriate to dismiss Udoh's filing for noncompliance with § 2244(b)(3).
Finally, this Court concludes no certificate of appealability shall issue. See United
States v. Lambros, 404 F.3d 1034. 1036 (8th Cir. 2005) (per curiam). Reasonable jurists
cannot differ as to whether Udoh has received authorization from the Eighth Circuit to file
a successive habeas claim. See Cox v. Norris, 133 F.3d 565. 569 (8th Cir. 1997) (noting
standard for Certificate of Appealability).
Accordingly, IT IS HEREBY ORDERED that:
Petitioner Emem Ufot Udoh's Renewed Motion to Vacate the Judgment and
Order under Rule 60(b)(6) (Docket No. 70) is DENIED;
Petitioner Emem Ufot Udoh's Motion and Application to Proceed TIP in this
Court and for Any Subsequent Appeal (Docket No. 69) is DENIED AS
MOOT; and
A Certificate of Appealability is DENIED.

Dated: July 14 2020

s/ Tauf ft Nagnuson
Paul A. Magnuson
United States District Court Judge

5

